Supreme Court, U.S.
FILED

AUG 1 7 2020

no.

2.0-11R

OFFICE OF THE CLERK

In The
Supreme Court of the United States

ANTHONY T. GROSE, SR.,
Petitioner,
vs.
STEVEN TERNER MNUCHIN,
Secretary,
Department of the Treasury,
Internal Revenue Service, (IRS) Agency,
Respondent,

On Petition for a Writ of Certiorari to the
United States Court of Appeals for
the Sixth Circuit Court of Appeals

PETITION FOR A WRIT OF CERTIORARI

ANTHONY T.GROSE, SR.,
Pro se, litigant, Petitioner
Plaintiff- Appellant
4192 Sable Dr.
Memphis, TN 38128
tyroneagrose@bellsouth.net
(901)371-0119

ORIGINAL

1

i
QUESTION(S) PRESENTED FOR REVIEW
1. The question present to this Court in this Civil Action matter, [suit or
proceeding in a court of the United States to which, against the United States],
-fa federal department, office, agency, officer, or employee(s), whom is a
party,} pursuant 28 U. S. C. ~2403 - “Intervention by United States;
constitutional question” - wherein the constitutionality of an Act of Congress
affecting the public interest is drawn into question, the court shall certify such
fact to the Attorney General, and shall permit the United States to intervene for
presentation of evidence.
The question is - Were any such documentation entries in the court’s
proceedings whether the U. S. District Court or the Appellant Sixth
Circuit Court had jurisdiction pursuant to 28 U.S.C. ~2403(a) that
certified to the Attorney General the fact that the constitutionality of an
act of congress was drawn into question?
2. Does the doctrines of res-judicata and collateral estoppel fail when the
Petitioner has repeatedly disputed, proven with sufficient evidence in the
courts records of retaliations, that not any one of the necessary elements
required for this type of lawsuit {summary judgment, - dismissal} had been
established?
3. Does the doctrine of collateral estoppel [in a “employment law discrimination
Claim Pursuant to Title VII and ADEA”] of “continuous retaliation” - hostile
work environment, harassment, denials of Reasonable Accommodations], bar
or limit a subsequent claim, that were pending, being held on appeal before
the Equal Employment Opportunity Commission {which the petitioner had not
exhausted “all” administrative remedies}, that “had not ripen.” for
adjudication, stop a lawsuit [summary judgment and in the alternatively
Dismissed the complaint], from being review by the courts “base on the
merits” ?

2

ii.
PARTIES TO THE PROCEEDINGS
Pursuant to Rule 14.1(b) the parties to the proceedings below include the respondent,
petitioner. All parties do not appear in the caption of the case on the cover page. A list
of all parties to the proceeding in the court whose judgment is the subject of this petition
is as follows:
Anthony T. Grose, Sr.,
4192 Sable Dr.
Memphis, TN 38128
(901)371-0119
Petitioner,
Steven Terner Munchin, et al
Internal Revenue Service, Agency
Secretary, Department of the Treasury
Respondent,
U. S. Attorney’s Office
Western District of Tennessee
C/O Monica Simmons-Jones
Clifford Federal Building 8th Floor
167 N. Main St.
Memphis, TN 38103
(901) 544-4231

Attomey-of-Record
On Behalf of Respondent
3 Copies Pursuant to Rule 29.3

Attorney General of the United States
William P. Barr
U. S. Department of the Treasury
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
(202)514-2000
The Solicitor of the United States
Noel Francisco
and, or Jeffrey B. Wall, Acting
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
(202)514-2203

3

iii.
CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, Anthony Grose, Sr., and/or the Estate of
Anthony T. Grose, Sr., is a individual United States Citizen. There is no parent public
held company owning 10% or more of Applicant’s stock.

Petitioner - Appellant Anthony T. Grose.. Sr., pro se, litigant, states that
plaintiff is not a {self} Subsidiary Sole Propriety Affiliate of a Publicly Owned
Registered Limited Liability Corporation.
AFFIDAVIT
U. S. Supreme Court No.
I Anthony T. Grose, Sr., attest to the above list Corporate Statement, is true
In the: United States of America
In the State of: Tennessee
In the County of: Shelby

Anthony T. Grose, Sr., Pro se, litiga
(Signature)
(Notary Signature)

_11-20-2020
(Date)

(Date)

(Notary Seal)

4

iv.
TABLE OF CONTENTS
QUESTIONS PRESENTED...................................................................
PARTIES TO THE PROCEEDINGS BELOW.......................................
CORPORATE DISCLOSURE STATEMENT.......................................
TABLE OF CONTENTS........................................................................
TABLE OF AUTHORITIES..................................................................
CIATIATION OF THE OFFICIAL AND UNOFFICIAL REPORTS OF OPINIONS AND ORDERS ENTERED IN THE CASE
PETITION FOR A WRIT OF CERTIORARI........................................
JURISDICTION.....................................................................................
CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED
STATEMENT OF THE CASE..............................................................
BACKGROUND SUMMARY OF THE CASE....................................
REASONS FOR GRANTING PETITION............................................
JUDICAIL REVIEWABLE ACTION...................................................
JUDGMENT SOUGHT TO BE REVIEWED.......................................
CONCLUSION - PRAYER FOR RELIEF.............................................
APPENDIX............................................................................................

11

m
iv

,v
VI
.VI

11
12
13
13
16
17
24
,24
32

5

■

V.

TABLE OF AUTHORITIES CITED

STATUTES & RULE NUMBERS - CASES AND CITATIONS
PAGE NUMBER
the, Administrative Procedures Act Section 702

18,25

the, Americans with Disabilities Act of 1990 (42 U.S.C. -1291 let seq.)...

14,25

Bonner vs. Circuit Court of St. Louis, 526 F.2d 1331, 1334 (8th Cir 1975)
(quoting Bramlet vs. Wilson, 495 F.2d 714, 716 (8th Cir. 1974)...............

22

CBOCS West, Inc., vs. Humphries,

23

Civil Rights Act of 1964 Section 717(c); 703; 707;714; (42 U.S. C. 2000e-l)
12,
the, Equal Employment Opportunity Act of 1972
Federal Employee Fairness Act - S. 404
Federal Rule of Civil Procedures 12(b)(6)

12,20
12
24,26

Federal Questions Jurisdiction Title 28 U.S.C. -1331,-2403

2

Federal Tort Claims Act

18

Fort Bend County, Texas vs. Davis (U. S. Supreme Court 18-525 2019)

.23

Gomez-Perez v. Potter,

23

Poling vs. Hovanania Enterprises, 99 F. Supp. 2d 502, 506-07 (D.N.J 2000)

22

Price vs. United States 174 U.S. 373 (1899 U.S.S. Ct.)

,22,23

Public Health and Welfare 42 U.S.C. Chapter 21 - Civil Rights
Subchapter VI - Equal Employment Opportunity
-2002- 16a to 2000e 16c
“The Government Employment Rights Act of 1991”................

12

S.E.C. vs. Elliott, 953, F.2d 1560, 1582 (11th Cir. 1992 ............

22

6

vi.
Taylor vs, Geithner, ( 6th Cir No. 08-2735; 11-6122)

23

The, Age Discrimination in Employment Act of 1967 (ADEA)
U. S. C. 28 -2403(a) ................................................................

ii,2

28, U.S.C. 28 -1254(1) (U.S. Supreme Ct. Jurisdiction),

11

U. S. C. 29 (Pub. L. 90-202)

iii,4

The Tucker Act.

18

The Rehabilitation Act of 1973 (29 U.S.C. —621 Section 501 and 504
Pub. L. No. 93-112, 87 Stat. 394 (Sept. 26,1973 at 29 U.S.C. 701

24,25

Title 5 U. C. - 7702 Action Involving Discrimination Judicially Reviewable

12

United States vs. Miller, 197 F.3d 644 (3rd Cir. 1999)

,22

U. S. Supreme Court 28. U. S. C -1254(1)

11

White vs. Bloom, 621, F.2d 276

23

7

vii
TABLE OF CONTENTS - CONTINUED
Citations of the Official and Unofficial Reports of Opinions and,
Orders Entered in the Case
See. APPENDIX
*

•

•

•

•

•

APPENDIX A
Six Circuit Court of Appeals MANDATE Document [37], Filed on 03/30/20
........................................................................................................App. 1
APPENDIX B
Sixth Circuit Court of Appeals Denial of Rehearing Mandate 03/20/2020
......................... ........................................................... ...................App. 2
APPENDIX C
Sixth Circuit Court of Appeals Order Filed on 09/27/2019
App. 3
APPENDIX D
U. S. District Court Western District of TN Court Order JUDGMENT
Filed on 05/21/2018
App. 4
APPENDIX E
U. S. District Court District Court’s Report and Recommendation File on
05/21/2018
App. 5
APPENDIX F
United States Supreme Court Order Extension {150 days} of time to file a writ of
certiorari, pursuant to Corvid-19. 03/19/20 and, 04/15/20.
App. 6

APPENDIX H
* The United States Supreme Court Office of the Clerk, Letter dated
September 28, 2020 instruction to correct, re-file petition within 60 days notice
Pursuant to Rule 14.1 and 14.5, 29.3
.App. 7

8

NO.
THE
SUPREME COURT OF THE UNITED

ANTHONY T. GROSE, SR.,
Petitioner,
v.
STEVEN TERNER MNUCHIN,
Secretary,
Department of the Treasury,
Internal Revenue Service, (IRS) Agency,
Respondent,

On Petition For A Writ Of Certiorari
to the United States Court of Appeals
For the Sixth Circuit
Case No. 18-5746 Mandate Judgment Issued on March 30, 2020.
Petition for Rehearing En Banc Denied on March 20, 2020
Disposition ORDER Issued on September 27, 2019
On Appeal from the United States District Court
for the Western District of Tennessee
Western Division
Hon. Thomas L. Parker, Judge
Civil Action Case No. 2:16-cv-02043-TLP-cgc
Document [82], Filed 05/21/18 at PagelD 2898

PETITION FOR A WRIT OF CERTIORARI

Anthony T. Grose, Sr., Petitioner, pro se litigant respectfully petition for a writ of
certiorari to review the judgment of the United States Court of Appeals for the Sixth
Circuit in this civil action.

9

Petitioner respectfully prays that a writ of certiorari issue of review the judgment
opinions cited by the courts below.

ANTHONY T.GROSE, SR.,
Pro se, litigant, Petitioner
Plaintiff- Appellant
4192 Sable Dr.
Memphis, TN 38128
tyroneagrose@bellsouth.net
(901)371-0119

10

OPINIONS BELOW
The opinion of the United States Court of Appeals Sixth Circuit Court, - Denial of
Rehearing MANDATE ISSUED 03/30/2020 appears at appendix “A”; to the petition and
is reported at (ECF No. 37),; is unpublished.
The opinion of the ORDER filed denying petition for En banc (ECF No. [34]), of the
United State Court of Appeals Sixth Circuit Entered on 03/20/20 Appears at Appendix
“B”; to the petition and is reported at (ECF No. 36), is unpublished.
The opinion of the United States Court of Appeals Sixth Circuit Court, - ORDER
Filed on 09/27/2019 The District Court judgment is AFFIRMED, Grose’s request for oral
arguments and pending motions are DENIED [24], [25], FRAP 34(a)(C) appears at
appendix “C”; to the petition and is reported at (ECF No. 33),; is unpublished, not for
publication.
The opinion of the United States District Court Western District of TN Court Order
Filed on 05/21/2018 appears at appendix “D”; to the petition and is reported at (ECF No.
82), is not published.
The opinion of the United States District Court Western District of TN - Court’s
Report and Recommendation File on 02/27/2018 Appendix “D” to the petition is
reported at (ECF No. 74), is not published.
JURISDICTION
The date on which the United States Court of Appeals Sixth Circuit decided my case
was September 27, 2019.
A timely petition for rehearing was denied by the United States Court of Appeals
Sixth Circuit on the following Date: _March 20, 2020, _and a copy of the order denying
rehearing appears at appendix
And, therefore subsequently the United States
Court of Appeals Sixth Circuit MANDATE ISSUED on March 30, 2020 at (ECF No. 37)
appears at Appendix _”A”
The United States Supreme Court has implemented extension of time to file the
petition for a writ of certiorari by 150 days of the mandate and a copy of that order of the
extension appears at appendix _”E”_.
The jurisdiction of the U. S. Supreme court s invoked under 28 U. S. C. -1254(1).

11

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED
The relevant provision of Title 5 United States Code - 7702 Action Involving
Discrimination shall be judicially reviewable, issue, action. Under Section 717(c) of the
Civil Rights Act of1964 as amended (42 U. S. C. 2000e-l).
The relevant provision of 42 U. S. C. Title 42 Public Health and Welfare,
Chapter 21 - Civil Rights Subchapter VI - Equal Employment Opportunities
~2000e -16a. to 2000e 16c cited as: “The Government Employment Rights Act of 1991”.
The relevant provision of Title 5 United States Code - 7702 Action Involving
Discrimination shall be judicially reviewable, issue, action. Under Section 717(c ) of the
Civil Rights Act of1964 (42 U. S. C. 2000e-l).
The relevant provision of 42 U. S. C. Title 42 Public Health and Welfare,
Chapter 21 - Civil Rights Subchapter VI - Equal Employment Opportunities
~2000e -16a. to 2000e 16c cited as: “The Government Employment Rights Act of 1991”.
“The Federal Employee Fairness Act - S. 404” : hearing before the Committee on
Governmental Affairs, United States Senate, One Hundred Third Congress, first session,
on S. 404 to Amend Title VII of the Civil Rights Act of1964, and the Age
Discrimination in Employment Act of1967 to improve the effectiveness of
administrative review of employment discrimination claims made by federal employees,
and for other purposes, May 26, 1993;
“The Age Discrimination in Employment Act of 1967 (“ADEA”)”
The Age Discrimination in Employment Act of1967 (Pub. L. 90-202) (ADEA), as
amended, as it appears in volume 29 of the United States Code, beginning at section 621.
The ADEA prohibits employment discrimination against persons 40 years of age or
older. The Older Workers Benefit Protection Act (Pub. L. 101-433) amended several
sections of the ADEA. In addition, section 115 of the Civil Rights Act of 1991 (P.L. 102166) amended section 7(e) of the ADEA (29 U. S.C. 626(e)). Cross references to the
ADEA as enacted appear in italics following each section heading. Editor's notes also
appear in italics. An Act to prohibit age discrimination in employment
Title VII of the Civil Rights Act of1964 (Pub. L. 88-352) (Title VII), as amended,
Title VII - Volume 42 U.S. Code, Sec. 2000e prohibits discrimination base on race,
sex, color, religion, and national origin.; Sec. 2000e-2 [Section 703 J Unlawful
Employment Practices: Sec. 2000e-3 [Section 704] Other Unlawful Employment
Practices: Sec. 2000e-6 [Section 707] Civil Action By the Attorney General -

12

STATEMENT OF THE CASE
Anthony T. Grose, Sr. proceeding pro se, On Petition for a Writ of Certiorari of the
United States Court of Appeals For the Sixth Circuit Case No. 18-5746 Mandate
Judgment Issued on March 30, 2020. Petition for Hearing En Banc Denied on
March 20, 2020. Disposition ORDER issued on September 27, 2019.
On Appeal from the United States District Court for the Western District of Tennessee
Western District Civil (USDC WDTN) Action Case No. 2:16-cv-02043-TLP-cgc. The
USDCWDTN issued on May 21, 2018 the, ORDER ADOPTING THE REPORT AND
RECOMMENDATION AND GRANTING DEFENDANT’S MOTION TO DISMISS
OR, IN THE ALTERNATIVELY, MOTION FOR SUMMARY JUDGMENT
GRANTED. Which the USDC WDTN subsequently issued JUDGMENT - DISMISSED
WITH PREJUDICE on May 21, 2018.
Anthony T. Grose, Sr., respectfully files a “writ of certiorari,” for a decision by the
U. S. Supreme Court to hear-review, an appeal from the lower Sixth Circuit Appellant
Court of Appeals decisions, opinions that DENIED, Grose’s request for relief from
judgments, oral arguments and motions that AFFIRMED the District Court’s
JUDGMENT.
Anthony T. Grose, Sr, a former Internal Revenue Service Employee, Customer
Service Representative GS-08 was employed at the IRS Memphis Service Center for the
period 1999 thru 2007. Petitioner claims he faced continuous acts of unlawful
discrimination base on “retaliation;”
- {Reasonable Accommodations Requested Denied, and Subsequently RA Denial;
physical disabilities, (eyes), myphopia; “harassments” - for participations in prior

13

protected covered EEO activities, EEO investigations, and the filings of EEO claims
being made against Grose’s management officials};
Petitioner filed a Amended Complaint (ECF No. 24) alleges, claims, violations
pursuant of Title VII of the Civil Rights Act of1964, 42 U. S. C. 2000(e). et seq. (“Title
VII), the Age Discrimination in Employment Act of1967, 29 U. S. C. ~ 621 et seq.
(“ADEA ”), Section 501 and 504 of the Rehabilitation Act of1973, 29 U. S. C.---- 701,
et. Seq. 791 et seq. (“Rehabilitation Act”), and the Americans with Disabilities
Act of1990, 42 U.S. C. ~ 12911 et. sea. rADA").
Grose filed approximately “four” other prior EEO discrimination that carried a basis
of “continuous acts of - retaliation, retribution, harassments,” that “all” hand different
actions, against his management officials that is undisputed.
The preceded civil action lawsuit USDCWDTN case 2:1 l-cv-02562-JDT-cgc, was
discrimination claims Grose made on the basis of “a failure to hire, promote, transfer
{from a hostile work environment}, to an agency open vacancy announcement for which
Grose applied for. After, the agency completed its internal EEO investigate, it was
determined that Grose, was found to be qualified for the Best Qualified List. The agency
provided its reasoning that Grose’s application was considered as a duplicate application?
As Anthony T. Grose, Jr., similar name whom also was employed at the IRS MSC W&I
had applied for the same position, and made the BQ list? Grose, made his arguments to
contest the agency non-litigate reasoning, putting the applications sis-by-side different
names; SSN; DOB; work history; would not stand. Further, Grose, contested the agency
Union Memorandum of Understanding - for relief to error & omission to award Grose
relief to allow a lateral, transfer, promotion, under the terms of the union’s MOU, to no
avail. The 2:1 l-cv-02562-JDT-cgc closed on 03/03/15 Summary Judgment GRANTED
14

to Defendant. The Court on 02/26/2015 Adopts the R&R of the Magistrate Judge that
th

Granted Summary Judgment to Defendants. Grose filed an appeal with the 6 Cir.
Court of Appeals, that disputed the district courts decision that the judgment was not
issued on the merits of the entire case or on discrete issues in that case to no avail.
As it pertains to this civil action lawsuit 2:16-cv-02043-TLP-cgc. The Agency
conduct and concluded 08/05/08 its internal EEO investigation of Grose’s claims of
“retaliations - by management officials,” of Grose’s Reasonable Accommodations
Request being Denied and subsequently Denial, of [two larger computer screens with a
document viewing reading system]. The agency was unwilling to provide Grose, relief
to his RAR and advise Grose of his rights to file a formal EEOC complaint within (30)
days. Grose filed a timely formal EEOC complaint with the Memphis, TN District field
office. A hearing was convened before an EEOC Administrative Judge on or about
07/29/10. The Administrative Judge issued an Order Entering Judgment on 08/17/10
finding Plaintiff had not proven his claims. This action concluded Plaintiff had exhausted
his administrative remedies. Thereafter the Agency entered a Final Order finding no
discrimination on 08/30/10.
Subsequently, August-September 2010 thereafter Grose moved to file a timely Appeal
of the Agency’s Final Order to the EEOC Administrative Judge decisions to. > the Equal
Employment Opportunity Commission Office of Federal Operations [EEOC (OFO)]. On
or about October 15, 2015 {holdingfor 5 years} the EEOC (OFO) issued its decisions of
Grose’s Appeal, finding no discrimination or relief being granted. Plaintiff did not
receive his copies of the EEOC (OFO) decision until on or about December 29, 2015, and
providing Grose with his rights to pursue a civil action Right-to-Sue letter in any U. S.

15

District Court. It is undisputed that Grose filed and brought the timely lawsuit in a U. S.
District Court.
REASONS FOR GRANTING THE PETITION
Congress intended for an aggrieve Federal Employee to pursue a civil suit in any U. S.
District Court to seek relief after “exhausting administrative remedies” within the
(1) Federal-Agency; (2) Equal Employment Opportunity Commission;
(3) Equal Employment Opportunity Commission - Office of the Federal Operations.
It is as much for the U. S. Attorney Office, Department of Justice (DOJ) duties to
defend a Government Agency - Federal Government from claims of employer(s)
unlawful discrimination, to resolve disputes in a U.S. District Court civil action.
As, it is also the U. S. Attorney’s Office DOJ-Department, through the Civil Rights
Division, tasked with duties to enforce a number of federal laws that protect people from
discrimination harm in a variety of settings based on their race, color, national origin,
disability status, sex, sexual orientation, gender identity religion, familiar status,
“retaliations” hostile work environment, harassment, etc., and other characteristics. To
settle “genuine” disputes of employer federal-agency discrimination in a civil action, as
this case represents.
The petitioner here had afforded the: (1) Department of the Treasury, - IRS Agency;
(2) the Equal Employment Opportunity Commission, (OFO); (3) the U. S. Attorney’s
Office (DOJ) and the Court’s - (4) “U. S District Court, Western District of Tennessee”
and, (5) “The Sixth Circuit Court of Appeals”; (4) Herein, for seeks a Final Appeal from
the United States Supreme Court to review, remand the petitioner “retaliation claims,”
matters back to the court’s for adjudication to be resolved “on the merits” on the whole

16

basis of the law and the facts.
Evidence in the records had been presented that Grose provided substantial facts,
evidence, proof that supports the Petitioner “Retaliations and ADEA,” claims were
unlawful discriminatory, as of the agency had displayed alternative motives.
This case explicit displays the DOJ interferences is two fold with schemes that are
designed to deter an aggrieve individual from pursing their employment discrimination
claims.
It is appalling that a case such as this has to put the aggrieve, petitioner seeking relief
of employer discrimination from cause(s), act(s) by agency employees that the petitioner
has spent time, resources, patients, persistence, perseverance, pray, for the court’s to
rightfully settle the disputes too right a wrong.
JUDICIAL REVIEWABLE ACTION
1.

Res Judicata and, or Collateral extoppel - does not apply in this lawsuit as

plaintiff “had not exhausted his administrative remedies,” which the genuine evidence of
material facts displays that Grose’s, Appeal before the EEOC (OFO), of his retaliation
claims - for Reasonable Accommodations Request, Denied and Subsequently RAR,
Denial were being held in abeyance upon completion of a summary judgment by the
defendants’ in a preceding civil action lawsuit in the U. S. district court.
2.

Federal Sovereign Immunity - In the United States, the federal government has

sovereign immunity and may not be sued unless it has waived its immunity or consent to
suit. The United States as a sovereign is immune from suit unless it unequivocally
consents to being sued. The United State Supreme Court in Price v. United States
observed: “It is an axiom of our jurisprudence. The government is not liable to suit

17

unless it consents thereto, and its liability in suit cannot be extended beyond the plain
language of the state authorizing it. The United States has waived sovereign immunity to
a limited extent, mainly through the Federal Tort Claims Act, which waives the
immunity if a tortuous act of federal employee causes damage, and the Tucker Act, which
waives the immunity over claims arising out of contracts to which the federal government
is a party. The Federal Tort Claims Act and the Tucker Act are not broad waivers of
sovereign immunity they might appear to be, as there are a number of statutory
exceptions and judicially fashioned limiting doctrines applicable to both. Title 28 U.S.C.
~1331 confers federal question jurisdiction on district courts, but this statue has been held
not to be a blanket waiver of sovereign immunity on the part of the federal government.
Section 702 of the Administrative Procedures Act provides a broad waiver of
sovereign immunity for actions taken by administrative agencies. It provides that persons
suffering a legal wrong because of an agency action are entitled to judicial review.

Finally, it should not have taken this process this long from the period from 2007 the
causation of action to the year 2021 13-14 years, to come to a resolution to Dismiss and
Alternatively Summary Judgment, is a disgrace upon our Court’s Judicial System.
Our Courts needs to be fair and equitable to its citizen, {stop tipping the scales of
justice} and not for the protections, interferences of corporations, companies and
governmental entities. This case exemplifies the Appeals Courts disregard to petitioner
Appeals Brief at ECF No. [27], and his Reply Brief at ECF No. [32], that disputes the
Respondent defense it had a litigate reasons for its discriminatory actions, that denied
the petitioner his request for reasonable accommodations that would have assisted him in
his performance to complete his job tasks.

18

As the Affidavits, Doctor(s) depositions shows Grose had/has a “eye” disability under
the meaning of the ADEA that substantial limits ones major life activates, “seeingdisability,” {the eyes}.
The Court records displays Grose had produce sufficient evidence to establish a prima
facie case or retaliation, for his Reasonable Accommodation(s) Requests being DENIED,
and therefore the United States Supreme Court shall REVERSE the (6th Cir. Ct) and
district court grant for summary judgment that dismiss Grose’s “Retaliation Claims.”
Further this case shall be REMAND for further proceedings consistent with this
courts’ opinion.
It is for these reasons that the U. S. Supreme Court shall Grant the Petition for a Writ
of Certiorari to the U. S. Court of Appeals for the Sixth Circuit and Remand this Case
back to the Appeals Court for further proceedings.
Rule of Law to be followed by the court’s in Federal Equal Employment
Opportunity Commissions lawsuits against the U. S. Government
(a) Complaint
Whenever the Attorney General has reasonable cause to believe that any person or
group of persons is engaged in a pattern or practice of resistance to the full enjoyment of
any of the rights secured by this subchapter, and that the pattern or practice is of such a
nature and is intended to deny the full exercise of the rights herein described, the
Attorney General may bring a civil action in the appropriate district court of the United
States by filing with it a complaint (1) signed by him (or in his absence the Acting
Attorney General), (2) setting forth facts pertaining to such pattern or practice, and (3)
requesting such relief, including an application for a permanent or temporary injunction,
restraining order or other order against the person or persons responsible for such pattern
or practice, as he deems necessary to insure the full enjoyment of the rights herein
described.
(b) Jurisdiction; three-judge district court for cases of general public importance: hearing,
determination, expedition of action, review by Supreme Court; single judge district court:
hearing, determination, expedition of action

19

The district courts of the United States shall have and shall exercise jurisdiction of
proceedings instituted pursuant to this section, and in any such proceeding the Attorney
General may file with the clerk of such court a request that a court of three judges be
convened to hear and determine the case. Such request by the Attorney General shall be
accompanied by a certificate that, in his opinion, the case is of general public
importance. A copy of the certificate and request for a three-judge court shall be
immediately furnished by such clerk to the chiefjudge of the circuit (or in his absence,
the presiding circuit judge of the circuit) in which the case is pending. Upon receipt of
such request it shall be the duty of the chief judge of the circuit or the presiding circuit
judge, as the case may be, to designate immediately three judges in such circuit, of whom
at least one shall be a circuit judge and another of whom shall be a district judge of the
court in which the proceeding was instituted, to hear and determine such case, and it shall
be the duty of the judges so designated to assign the case for hearing at the earliest
practicable date, to participate in the hearing and determination thereof, and to cause the
case to be in every way expedited. “An appeal from the final judgment of such court
will lie to the Supreme Court.”
In the event the Attorney General fails to file such a request in any such proceeding, it
shall be the duty of the chief judge of the district (or in his absence, the acting chief
judge) in which the case is pending immediately to designate a judge in such district to
hear and determine the case. In the event that no judge in the district is available to hear
and determine the case, the chief judge of the district, or the acting chiefjudge, as the
case may be, shall certify this fact to the chief judge of the circuit (or in his absence, the
acting chief judge) who shall then designate a district or circuit judge of the circuit to
hear and determine the case.
It shall be the duty of the judge designated pursuant to this section to assign the case
for hearing at the earliest practicable date and to cause the case to be in every way
expedited.
(c) Transfer of functions, etc., to Commission; effective date; prerequisite to transfer;
execution of functions by Commission
Effective two years after March 24, 1972 [the date of enactment of the Equal
Employment Opportunity Act of1972], the functions of the Attorney General under this
section shall be transferred to the Commission, together with such personnel, property,
records, and unexpended balances of appropriations, allocations, and other funds
employed, used, held, available, or to be made available in connection with such
functions unless the President submits, and neither House of Congress vetoes, a
reorganization plan pursuant to chapter 9 of Title 5 [United States Code], inconsistent
with the provisions of this subsection. The Commission shall carry out such functions in
accordance with subsections (d) and (e) of this section.
(d) Transfer of functions, etc., not to affect suits commenced pursuant to this section prior
to date of transfer

20

Upon the transfer of functions provided for in subsection (c) of this section, in all suits
commenced pursuant to this section prior to the date of such transfer, proceedings shall
continue without abatement, all court orders and decrees shall remain in effect, and the
Commission shall be substituted as a party for the United States of America, the Attorney
General, or the Acting Attorney General, as appropriate.
(e) Investigation and action by Commission pursuant to filing of charge of
discrimination; procedure
Subsequent to March 24, 1972 [the date of enactment ofthe Equal Employment
Opportunity Act of1972], the Commission shall have authority to investigate and act on a
charge of a pattern or practice of discrimination, whether filed by or on behalf of a person
claiming to be aggrieved or by a member of the Commission. All such actions shall be
conducted in accordance with the procedures set forth in section 2000e-5 of this
title [section 706],
Statements findings of Fact
Plaintiffs objections to the Magistrate Court’s Proposed Finding of Fact are relevant,
as the record reflects he made his objection findings of facts to the Report and
Recommendations [74], see ECF (No. [78]). The courts inserts that Plaintiff was
attempting to introduce facts that were not before the magistrate simply is not true.
Must see these following docket items that preceded the courts R&R at [74], claims at
(ECF No. [82] PagelD 2903-2904) See (ECF No. [59],) Plaintiff Memorandum in
Support of 1st Dispositive Cross-Motion in Opposition [57], of Defendant’s Motion to
Dismiss and Alternatively Motion for Summary Judgment [45]. With attached Plaintiff
Exhibits that Disputes Response
See. (ECF No. [60], Sealed Documents in Support of Plaintiff s Memorandum [59].
Exhibits {Excepts - deposition, medical documentations, EEOC Report of Investigation,
etc., See. (ECF No. [61], and [66] Plaintiffs objection(s) to defendant Affirmative
Defense to have this civil action on the grounds of “Res Judicata”
Plaintiffs Procedural Objections are warranted.
As Plaintiff filed at (ECN No [78],) a timely OBJECTION and Responses to [74],
Report and, Recommendation (R& R) for the court to take into consider pursuant to 28
U. S. C. ~ 636(b)(B); and thereafter subsequently Defendant Counsels filed at (ECF No.

21

[79],) OBJECTION R&R Defendants response to Plaintiff Objection.
Thereafter, the court moved with no considerations of plaintiffs objections which the
records displays he provided disputed “genuine” evidence before the court “stating his
claim that he is entitled to relief for damages sustained for the defendants {employees
management official that makes the defendant liable for, it employees {management
officials action(s)} the prohibits employment unlawful discriminatory practices under the
rule of law. See. The Court’s ORDER GRANTING [45], MOTION TO DISMISS FOR
FAILURE TO STATE A CLAIM; GRANTING [45], MOTION FOR SUMMARY
JUDGMENT; TERMINATING [71], MOTION FOR LEAVE TO FILE; AND
ADOPTING [74], REPORT AND RECOMMENDATION at (ECF No. [82]).
The court simultaneously on 05/21/2018 issued its JUDGMENT at (ECF No. [83],
Providing the plaintiff no alternative but to Appeal the courts discretionary decisions in
this civil action to be rightfully review by the higher courts.
Pro Se Standard of Review
The courts provide pro se parties wide latitude when construing their pleading and
papers. When interpreting pro se papers, the Court should use common sense to
determine what relief the party desires. S.E.C. v. Elliott, 953 F.2d 1560, 1582 (11th Cir.
1992. See, also United States v. Miller, 197 F.3d 644, 648 (3rd Cir. 1999). (Courts has
special obligation to construe pro se litigants’ pleading liberally); Poling v. Hovanania
Enterprises, 99 F. Supp.2d 502, 506-07 (D.N.J. 2000).
Moreover, “the court is under a duty to examine the complaint to determine of the
allegations providing for relief on any possible theory. ” Bonner v. Circuit Court ofSt.
Louis, 526 F.2d 1331, 1334 (8th Cir. 1975) (quoting Bramlet v. Wilson, 495 F.2d 714,

22

716 (8th Cir. 1974)). Thus if this court were to determine any motion to dismiss this court
would have to apply the standard of White v. Bloom. Furthermore, if there is any
possible theory that would entitle the Plaintiff-Petitioner to relief, even one that the
Petitioner hasn’t thought of, the court cannot dismiss this case.
Case Law Employment Retaliation Claims
See. Supreme Court of the United States Fort Bend County, Texas v. Davis No.
18-525 Argued April 22, 2019 Decided June 3, 2019 Justice Ginsburg, J., delivered the
opinion for a unanimous Court.
See. CBOCS West, Inc. v. Humphries, a terminated African-American employee sued
his former employer Cracker Barrel, alleging race discrimination and retaliation and
asserting claims under Title VII of the Civil Rights Act of 1964 and ~1981.;
See. Gomez-Perez v. Potter, involving the federal -sector provision of the Age
Discrimination in Employment Act (“ADEA), and applicable only to federal employers,
and employees of the United States Postal Service (“USPS”). The trial court granted
summary judgment in favor of defendants on the basis of sovereign immunity, which was
affirmed on appeal. The Supreme Court reversed, ruling that a federal employee who is a
victim of retaliation due to the filing of an age discrimination complaint may assert claim
under the ADEA’s federal-sector provision, despite the ADEA’s lack of specific
anti-retaliation language.
See. Taylor v. Geithener (6th Cir. No. 08-2735; and No. 11-6122) this case conflicts
contradicts with the 6th Cir. own rules of “retaliation claims.”
It is these types of cases that reflect a tendency by the judiciary to assume an
anti-retaliation cause of action, even if an employment statue does not include exact

23

language authorizing it. Once an employee complains of workplace discrimination, the
prudent employer, federal-agency thoroughly investigate the same, {and or fails to do a
complete through investigation of the facts}, and proceed only after thoughtful
consideration.
CONCLUSION - JUDGMENT SOUGHT TO BE REVIEWED
It is for these reason(s) of these constitutional and statutory provision involved that are
cited herein this case is of general public importance “discrimination of a government
employee rights to aggrieve for relief of compensatory, injunctive and declaratory
relief judgment to be granted the petitioner upon further review of this court, that shall
established precedents that this court shall on such a rare occasion in the years of
2020-21 before JCOL&S.
It for these reason cited herein that this United States of America, Supreme Court of
the land shall address, hear, and rightfully intervene the government’s abuse of powers.
For the reasons stated, the district court’s decisions dismissing Mr. Grose’s
federal-sector claims of his Title VII and ADEA under Fed. R. Civ. P 12(b)(6) are not
barred by the doctrine of res judicata because they were or could not have been raised in
Plaintiffs previous action, [Anthony T. Grose, Sr., v Jacob J. Lew, Civil Action No.
2:1 l-cv-02562-JDT-cgc], because it was on Appeal before the EEOC (OFO) should be
REVERSE and therefore not be dismiss nor alternatively grant summary judgment to
Steven T. Mnuchin favor on Grose’s Title VII and ADEA claims. And,
therefore this court shall REMAND for further proceedings consistent with the Courts
opinion.
For the reasons stated, the district court’s decisions dismissing Mr. Grose’s federal

24

claims of his Rehabilitation Act of 1973, Pub. L. No. 93-112, 87 Stat. 394 (Sept. 26,
1973) at 29 U.S.C -701, (as amended, was made applicable to Federal employees
pursuant to the American with Disabilities Act, and laid the groundwork for Federal
Agencies responsibilities relative to Reasonable Accommodations. Claim Fail Under
Rule 56 should be REVERSE and therefore not be dismiss nor alternatively grant
summary judgment to Steven T. Mnuchin on Grose’s Rehabilitation Act claim. As on
Appeal in view of the entire record on appeals as cited herein plaintiff had/has presented
the Courts with a prima facie case of discrimination. And, therefore REMAND for
further proceedings consistent with this Courts opinion shall be granted.
For the reasons stated, the district court’s decisions dismissing Mr. Grose’s federal
claims of his American with Disabilities Act (ADAf “the ADA’s nondiscrimination
standards also apply to federal sector employees under section 501 of the Rehabilitation
Act, as amended, and its implementing rules. Thus, the Rehabilitation Act of 1973, Pub.
L. No. 93-112, 87 Stat. 394 (Sept. 26, 1973) at 29 U.S.C -701, (as amended, was made
applicable to Federal employees pursuant to the American with Disabilities Act, and laid
the groundwork for Federal Agencies responsibilities relative to Reasonable
Accommodations. Thus Appellants ADA - Reasonable Accommodation Claim Fail
Under Rule 56 and Rule 12(b)(6) should be REVERSE and therefore not be dismiss nor
alternatively grant summary judgment to Steven T. Mnuchin on Grose’s Rehabilitation
Act claim. As on Petition For A Writ of Certiorari in view of the entire record on appeals
as cited herein plaintiff had/has presented the Courts with a prima facie case of
discrimination. And, therefore REMAND for further proceedings consistent with this
Courts opinion.

25

For the reasons stated, the district court’s decisions dismissing Mr. Grose’s federal
claims of his RETALIATIONS - Title VII: ADEA; ADA; and RA claims pursuant to
the “protected activity retaliation” as viewed by the EEOC as the most serious
misconduct by employers. Findings of facts that the defendant, agency, employer is in
violations of EEOC policies and guidelines when the agency, EEOC splitting up and
a failed to consolidated Grose’ “Retaliations Claims” which the agency admits it took no
actions against any of Grose’s supervisor, management officials that split up Grose’s
retaliations claims. Grose’s has presented aprima facie case that his Supervisor’s
management official, decision makers had pretext reasons not to engage in the agency
interactive Reasonable Accommodations polices, guidelines retaliated against claims that
denied and subsequently denied Grose’s (R/A/R) and the court decision under Fed. R.
Civ. P 12(b)(6) as barred by the doctrine of res judicata Grose’s Retaliation Claims,
because they were or could have been raised in Plaintiffs previous action, Anthony T.
Grose, Sr., v Jacob J. Lew, Civil Action No. 2:1 l-cv-02562-JDT-cgc, should be
REVERSE and therefore not be dismiss nor alternatively grant summary judgment to
Steven T. Mnuchin on Grose’s Retaliations claims. And, therefore REMAND for further
proceedings consistent with the Courts opinion.
For the reasons stated, the district court’s decisions dismissing Mr. Grose’s federal
claims of his Reasonable Accommodations under Fed. R. Civ. P 12(b)(6) as should
be REVERSE and therefore not be dismiss nor alternatively grant summary judgment to
Steven T. Mnuchin on Grose’s Reasonable Accommodations claim. And, therefore
REMAND for further proceedings consistent with this Courts opinion.
As Grose had/has presented a prima facie case with direct and circumstantial evidence

26

in the records to the Court which a Juror, jurist can blatantly view, under the “but for”
“cat’s paw” “mixed motives” theories rule of law, that the defendant’s employees had
pretext motives of “prohibited unlawful employment practices of misconduct by Grose’s
supervisor’s, management officials. Misconduct that Denied Grose’s Reasonable

Respectfully submitted,

Anthony T. Grose, Sr., Petitioner
4192 Sable Dr.
Memphis, TN 38128
(901)210-2519
Dated: November 20th 2020

27

